1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

Zachary C. Schauf
Tel +1 202 637 6379
ZSchauf@jenner.com

October 7, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Oklahoma v. Jones, No. 21-371
Dear Mr. Harris:
I represent Respondent in the case referenced above. Petitioner Oklahoma filed petition for a writ
of certiorari on September 4, 2021, and this matter was placed on the docket on September 8, 2021.
Respondent’s response to the petition is due on October 8, 2021. Pursuant to Supreme Court Rule
30.4, I write to request a thirty (30) day extension of time to file a response to the petition in this
case.
In light of the press of other business, counsel requires additional time to fully respond to the
arguments presented in the petition. Moreover, because counsel represents several dozen
respondents in cases where Oklahoma has filed similar petitions, counsel requires additional time
to draft and file each response.
For these reasons, I respectfully request a thirty (30) day extension of time, until November 8,
2021, to file a response to the petition.
Sincerely,

/s/ Zachary C. Schauf
Zachary C. Schauf

CHICAGO

LONDON

LOS ANGELES

NEW YORK

S AN FRANCISCO

W ASHINGTON, DC

WWW.JENNER.COM

